 FAA TELECOMMUNICATIONS INFRASTRUCTURE
   PROGRAM: FAA NEEDS TO TAKE STEPS TO
IMPROVE MANAGEMENT CONTROLS AND REDUCE
            SCHEDULE RISKS
         Federal Aviation Administration

          Report Number: AV-2006-047
           Date Issued: April 27, 2006
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FAA Telecommunications                                          Date:    April 27, 2006
           Infrastructure Program: FAA Needs To Take
           Steps To Improve Management Controls and
           Reduce Schedule Risks
           Federal Aviation Administration
           Report Number AV-2006-047

  From:                                                                                   Reply to
           Theodore Alves                                                                 Attn. of:   JA-10
           Principal Assistant Inspector General for
            Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) Telecommunications Infrastructure (FTI) program. The
           purpose of the FTI program is to replace seven existing FAA-owned and -leased
           telecommunications networks with a single network that would cost less to
           operate. However, expected benefits from reducing operating costs are eroding
           because of schedule problems. FAA officials recognize these problems and told
           us that they are committed to taking steps to get FTI back on track.

           The largest and costliest network to be replaced by FTI is the Leased Interfacility
           National Airspace System Communications System (LINCS),1 operated formerly
           by MCI WorldCom but now by Verizon.2 FTI is considered a mission-critical
           program because its network will carry the National Airspace System’s (NAS)
           telecommunication services (e.g., voice and radar) for air traffic control
           operations. These services are currently carried on the LINCS network. When
           completed, FTI will consist of about 25,000 telecommunications services at over
           4,400 FAA sites.

           1
               In fiscal year 2005, FAA spent about $123 million for LINCS and about $217 million overall to operate and maintain
               existing telecommunications networks.
           2
               In January 2006, MCI was acquired by Verizon Communications. When the FTI transition began, MCI managed
               and operated LINCS under a 5-year bridge contract with FAA. LINCS includes about 20,000 of the estimated
               25,000 circuits planned to be replaced by FTI. For the purpose of this report, we will refer to MCI as Verizon.
                                                                                                 2


FAA competitively selected the Harris Corporation in 2002 to be its FTI prime
contractor. FAA’s contract with Harris covers the cost of developing, procuring,
and operating the FTI network and is essentially a 15-year lease agreement
through 2017. The contract has a minimum base value of $303 million and a
maximum base value of $1.3 billion, but FAA can accommodate increases in
quantities of services ordered up to a contract ceiling of $3.5 billion. There is no
limit on quantities.

FAA’s Joint Resources Council3 (JRC) approved a rebaselining of FTI’s cost and
schedule goals in December 2004. FAA’s revised FTI lifecycle cost estimate is
$2.4 billion through 2017 (up from $1.9 billion.) The lifecycle cost estimate
includes all FAA and Harris contract costs. FAA officials cited several reasons for
the rebaselining, including growing telecommunications requirements, providing
better FTI system security, and adding 5 years to the expected life of the program.
For example, since the program started, FAA has increased the number of required
sites scheduled to receive FTI equipment from 1,374 to 4,463. FAA’s revised
schedule goal is to complete the transition to FTI by December 2007. In 2004,
FAA estimated that FTI would save the Agency $820 million cumulatively in
reduced operations costs by 2017.

Our audit objectives were to (1) identify the key program risks that could affect
program costs and schedule projections and (2) determine whether FAA can
transition to FTI within revised estimated cost and schedule baselines. Exhibit A
contains additional information on our audit scope and methodology.


RESULTS IN BRIEF
FTI is a high-risk and schedule-driven program that is unlikely to meet its
December 2007 revised completion date. In fact, only months after being
rebaselined in December 2004 by the JRC, the program began falling behind
schedule again and has not recovered. Because the primary purpose of the FTI
program is to lower operating costs, which is dependent on deploying the system
on schedule, expected benefits are eroding.

FTI is not likely to be completed on time because the JRC did not direct the
Program Office to develop a detailed realistic master schedule or an effective
transition plan identifying when each site and service will be accepted, when
services will be cut over to FTI, and when existing (legacy) services will be
disconnected. Further, the Program Office needs to ensure better coordination


3
    The JRC is FAA’s senior decision-making body that approves funding for major acquisitions.
                                                                                  3


with its field offices and with Verizon in order to ensure that service disruptions
are avoided when services are transitioned to FTI.

Until FAA develops a realistic schedule and effective transition plan, it will be
difficult to hold the FTI contractor accountable or determine when the FTI
transition will be completed. Moreover, FAA cannot accurately estimate how
long Verizon’s LINCS services will be needed until it has a realistic schedule. To
account for the delays to date, FAA will have to exercise its 1-year option to
extend Verizon’s existing contract to support the LINCS services but may need to
retain Verizon’s services for a longer period.

As presented to the JRC, the FTI Program Office’s plan only focused on
completing “site acceptance,” which is primarily the installation of FTI equipment.
However, three other critical steps are required to transition FTI services into the
NAS and begin achieving cost savings. The additional steps are service
acceptance, service cutover, and legacy circuit disconnect. Until FAA disconnects
its legacy circuits, projected cost savings from reduced operating costs will not be
realized.

While focusing on site acceptance, FAA only disconnected about 3 percent of the
legacy circuits by the end of fiscal year (FY) 2005 and accumulated a large
backlog of uncompleted work. As a result, the benefits that FAA expected to
achieve by reducing its operations costs are eroding while the risk of not being
completed on time is increasing. For example, FAA did not realize $32.6 million
in reduced operating costs in FY 2005 that it expected due to the limited progress
made disconnecting legacy circuits. Additionally, unless FTI service cutover and
legacy circuit disconnect rates accelerate substantially, the estimated cost savings
for FY 2006 of about $102 million is also at risk of not being realized.

In September 2005, we briefed senior FAA officials about our concerns with the
status of the FTI program. During the briefing, we discussed, among other issues,
the need for the FTI Program Office to develop a realistic master schedule for the
four steps required to complete FTI transition. Additionally, we discussed the
need for the FTI Program Office to develop and implement a contractually binding
transition plan. The Department of Transportation’s Investment Review Board
(IRB) also raised concerns about the status of the FTI transition and directed FAA
to develop better metrics for measuring FTI progress than goals for site
acceptance. FAA agreed to develop better cost and schedule metrics, including
data based on Earned Value Management (EVM). EVM is a management tool
that can be used to identify early warning indicators of potential cost overruns and
schedule delays and to make critical decisions in managing contracts.
                                                                                4


In December 2005, FTI program officials informed the IRB and the Office of
Inspector General (OIG) that beginning in January 2006, additional performance
and financial metrics regarding FTI transition schedule, costs, and benefits would
be reported to senior FAA, IRB, and OIG officials. FAA has been providing OIG
with monthly metrics regarding the status of the FTI program. This is a good first
step, but it does not fully address the key risks to the program.

FAA officials agreed with our concerns regarding the FTI schedule and transition
plan and told us that they are committed to taking steps to get FTI back on track.
Getting the program on track is critical because according to FAA, FTI will
establish the framework for migrating to a secure, all-digital network capable of
supporting bandwidth to provide high-availability telecommunications services
across the NAS.

To achieve the December 2007 completion date for the FTI transition, FAA must
accelerate FTI service cutover and legacy circuit disconnect rates by almost
10-fold in FY 2006, as compared to actual disconnects through FY 2005. While
pursuing this highly aggressive goal, FAA needs to improve management controls
over the FTI program by:

   • Developing a realistic master schedule and an effective FTI transition plan.
     FAA needs to prepare and approve a contractually binding master schedule
     through FTI completion for the four transition steps. The site acceptance
     and service acceptance elements of the master schedule should be
     incorporated into Harris’ FTI contract to hold the contractor accountable.

      FAA also needs to develop a transition plan with all affected parties to
      avoid further schedule delays and outages to air traffic operations. FAA
      needs to coordinate with FAA regional officials to ensure that FTI site-
      specific requirements are defined and verified before transitioning services
      to FTI. FAA also needs to ensure that Verizon is included in the transition
      planning to effectively manage and execute LINCS disconnects after FTI
      cutovers. In its LINCS Bridge Contract, FAA foresaw the need for Verizon
      to work with the Agency and Harris to ensure an orderly transition from
      LINCS to FTI. Therefore, FAA included a contractually deliverable item,
      called a “comprehensive transition plan,” in the contract. However, FAA
      never ordered the comprehensive transition plan from Verizon.

   • Modifying the FTI contract to require that the contractor send its monthly
     program management information reports to FAA for the fixed-price
     elements of the contract. The FTI contractor uses a particular management
     tool called EVM, which is used to identify early warning indicators of
     potential cost overruns and schedule delays and to make critical decisions
                                                                                 5


      in managing the contract. However, the FTI contract does not require
      Harris to provide its EVM data for fixed-price elements of the contract,
      although these represent over 90 percent of the contract value. EVM data
      would have been useful to assist FAA management to monitor costs
      overruns for several fixed-price elements of the FTI contract. For example,
      a fixed-price element in the FTI contract called “network management and
      operations” increased during the second year of the contract by 32 percent
      (from $2.1 million to $2.8 million).

   • Determining the number of circuits and funding requirements for extending
     the LINCS bridge contract with Verizon through completion of the FTI
     transition. The LINCS contract expires in March 2007, well before FAA’s
     estimated completion date. The contract includes an option for a 1-year
     extension through March 2008, but FAA has not executed the extension or
     determined whether the Agency will need to retain Verizon’s services for a
     longer period.

   • Validating FTI cost, schedule, and benefit information to ensure that FAA’s
     FTI investment is still cost effective. Given that the FTI transition is
     experiencing schedule delays and the benefits are eroding, it is important
     for FAA to develop and validate FTI cost, schedule, and benefit
     information that reflects the current status of the program. Should FAA
     continue to experience delays transitioning to FTI, the Agency needs to
     develop a contingency plan that includes a determination of the cost of
     maintaining both legacy and FTI networks.

FAA Has Only Focused on Site Acceptances, not Service Cutovers
and Legacy Disconnects Required To Complete FTI Transition
In December 2004, FAA’s JRC approved a schedule baseline only for achieving
FTI “site acceptance,” which is primarily the installation of FTI equipment.
However, following site acceptance, three other critical steps are required to
transition FTI services into the NAS and begin achieving cost savings by
disconnecting legacy circuits. The additional steps are service acceptance, service
cutover, and legacy circuit disconnects. The JRC did not approve a schedule
baseline for completing these steps (see Table 1).
                                                                                                        6




      Table 1. December 2004 JRC-Approved FTI Schedule Goals
              Focused Exclusively on FTI Site Acceptance
    Transition Steps           FY          FY            FY          FY      FY          Total
                              2004        2005          2006        2007    2008        Quantitya
FTI Site Acceptance            26         1,064         1,795       1,515    63          4,463
JRC-Approved Plan                         Sites         Sites       Sites   Sites         Sites
12/2004
FTI Service                                                                               25,000
Acceptance                                                                               Services
FTI Service                                                                               25,000
Cutover                                                                                  Services
Legacy                                                                                    25,000
Service/Circuit                                                                          Services
Disconnects
Source: FAA’s December 2004 JRC Decision Brief for FTI
a.
   Total quantity of services is about 25,000 according to FAA


During FY 2005, the FTI program began experiencing significant schedule delays
and did not meet the JRC-approved annual goal of 1,064 FTI site acceptances. For
example, according to MITRE,4 FAA did not complete site acceptance work at its
complex sites (e.g., Air Route Traffic Control Centers) until June 2005, 11 months
after the planned completion date. In June 2005—6 months after the JRC
approved the schedule—the FTI Program Office drafted a “recovery plan” and
reduced its site acceptance goal to 565 sites, a 45 percent reduction from the JRC-
approved plan (see Table 2).

          Table 2. June 2005 FTI Program Office Recovery Plan
          Significantly Reduced FY 2005 Site Acceptance Goal
     Transition Steps          Prior            FY                FY         FY       FY       Total
                               Years           2005              2006       2007     2008     Quantity
                              (actual)         (est.)            (est.)     (est.)   (est.)   Required
    JRC-Approved FTI             26            1,064             1,795      1,515     63       4,463
    Site Acceptance             Sites          Sites             Sites      Sites    Sites      Sites
    Plan 12/2004
    Program Office Site          26             565              1,754      1,788    330        4,463
    Acceptance                  Sites           Sites            Sites      Sites    Sites      Sites
    Recovery Plan
    6/2005
Source: FTI Program Office



4
    MITRE is a Federally Funded Research and Development Center under contract to FAA. MITRE completed an
    independent technical assessment and evaluation of FTI in July 2005.
                                                                                   7


While FAA exceeded its revised site acceptance goals established in the recovery
plan (about 700 sites through the end of FY 2005), FAA has made very little
progress transitioning FTI services into the NAS. For example, by the end of
FY 2005, only about 2.5 percent (610 of 24,266) of FTI services had been cutover
to the NAS for operational use. Similarly, only about 3 percent (591 of 19,322) of
the legacy circuits had been disconnected at the end of FY 2005. Due to the
limited progress made transitioning to FTI in FY 2005, the program has developed
a large backlog of uncompleted service acceptance, service cutovers, and legacy
circuit disconnect work.

To address this FTI backlog, the Program Office is now planning to accelerate the
FTI transition rate substantially in FY 2006, as reported in FAA’s January 2006
Monthly Status Report on FTI Metrics. For instance, as Table 3 illustrates, the
FTI Program Office plans to accelerate legacy circuit disconnect rates by almost
10-fold from 591 actual disconnects through FY 2005 to 5,046 planned
disconnects in FY 2006. This is a high-risk assumption that is not realistic. FAA
has already failed to achieve its service cutover and legacy disconnect goals for
the first quarter of FY 2006.

        Table 3. Numbers of Actual and Planned FTI Service
      Acceptances, Cutovers, and Legacy Circuit Disconnects,
                       as of January 2006
    Transition            Actuals    FY     FY     FY     FY      Total     Percent
      Steps              Reported   2005   2006   2007   2008   Quantity   Complete
                         Through    Plan   Plan   Plan   Plan   Planned    Through
                           FY05                                            FY 2005
 Service                   1,520    1,396 7,400 13,190 2,288     24,274      6.3%
 Acceptance                                                     Services
 Service                     610    1,356 7,264 13,039 2,607     24,266     2.5%
 Cutover                                                        Services
 Legacy                      591    2,177 5,046   9,325 2,774    19,322     3.1%
 Service/Circuit                                                Services
 Disconnect
Source: FTI Program Office


It is important for FAA to get FTI back on track and meet its goals for completing
FTI transition, because delays translate directly into increases in operations costs
due to the prolonged sustainment of legacy networks. For example, FAA planned
to disconnect enough legacy services to save an estimated $32.6 million in
FY 2005. However, by the end of FY 2005 the Agency actually spent
$217 million for the existing legacy networks, far more than the $181 million
estimated at the beginning of the year. Additionally, unless FTI service cutover
                                                                                    8


and legacy disconnect rates accelerate substantially, the estimated savings for
FY 2006 of about $102 million is also at risk of not being realized. Furthermore,
according to a MITRE analysis of the FTI program, if the program does not
achieve its December 2007 completion date, each 1-year delay could translate into
as much as a $100 million increase in telecommunication costs to FAA.

FAA Needs To Develop a Realistic Master Schedule and an Effective
Transition Plan Through FTI Completion
FAA needs to develop a contractually binding master schedule and an effective
FTI transition plan to avoid further schedule delays and outages to air traffic
control operations. FAA has no contractually binding master schedule with Harris
through FTI completion. A contractually binding schedule with the contractor is a
basic contract management tool for any acquisition program. Yet FAA’s FTI
contract with Harris does not include a master schedule. Without this tool, FAA
cannot know whether its schedule projections (such as FTI completion by
December 2007) are realistic, nor can it hold its contractor accountable for failing
to meet those projections. Because FAA does not have a detailed master schedule,
Harris learns of work FAA expects it to do from contract letters issued monthly by
the FTI Program Office. The contract letters only project work required 4 months
ahead and therefore do not provide Harris with a reasonable basis for making
longer-range projections to plan transition work efficiently.

To better manage and execute FTI transition, FAA needs to develop and approve a
master schedule for all four steps (i.e., site acceptance, service acceptance, service
cutover, and legacy disconnect) through FTI completion. The master schedule
should be incorporated into the Harris contract to ensure accountability.

FAA also needs an effective transition plan. FAA needs to ensure that Verizon is
included in the transition planning to effectively manage and execute how LINCS
circuits will be cutover to FTI and when the LINCS network will be disconnected.

The FTI Program Office also needs to include FAA regional officials as part of the
transition planning to verify site-specific requirements before cutting over to FTI
services. This is an important program management control, as was evident by an
October 31, 2005, incident at an FAA facility supporting Chicago’s O’Hare
Airport. Because FTI program officials did not coordinate with FAA regional
officials to determine the site-specific requirements, FAA specified the wrong
number of FTI circuits for Harris to install before beginning FTI operations.
Subsequently, when FAA transitioned the services to FTI, the services failed,
causing a loss of critical radar data to O’Hare’s air traffic controllers. The
controllers had to significantly reduce the number of aircraft operations, and
                                                                                 9


numerous flight delays occurred until FAA was able to switch back to LINCS
after more than a 7-hour delay.

To Improve FTI Contract Management, FAA Needs To Require the FTI
Contractor To Provide Monthly Management Reports on the
Fixed-Price Elements of the Contract
FAA requires the FTI contractor to provide EVM data on the cost-plus elements of
the FTI contract. However, FAA does not require similar data for the fixed-price
elements, although they total over 90 percent of the $1.3 billion contract value.
EVM is a management tool that can be used to identify early warning indicators of
potential cost overruns and schedule delays and to make critical decisions in
managing contracts.

EVM data would have been useful to assist FAA management in monitoring cost
growth of several fixed-price elements of the FTI contract due to changes in work
requirements. For example, a fixed-price element in FTI contract called “network
management and operations” increased during the second year of the contract by
32 percent (from $2.1 million to $2.8 million). FAA should be receiving this
important information for the fixed-price elements of FTI contract as well, so that
the Agency’s executives can make informed decisions about the program’s cost
and schedule.

FAA Needs To Determine the Number of LINCS Circuits and Funding
Required To Extend the LINCS Bridge Contract
While transitioning to FTI, FAA has a 5-year bridge contract in place with
Verizon for leasing telecommunications services over the Verizon LINCS
network. The LINCS network contains 20,000 of FAA’s approximately
25,000 circuits, and FAA pays about $120 million per year to operate and
maintain the network. The LINCS contract expires in March 2007, before FAA’s
December 2007 estimated completion date. The contract includes an option for a
1-year extension through March 2008, but FAA has not executed the extension.

FAA and Verizon officials need to determine the number of LINCS circuits that
will be operating during the extension year and the funding requirements for that
period. Since FAA already knows that LINCS will not be completely
disconnected by March 2007, FAA needs to begin negotiations to resolve
requirements issues and finalize LINCS contract terms and conditions as soon as
possible to ensure that LINCS remains available during the extension year and
longer if necessary.
                                                                               10


To Ensure That FTI Is Still Cost Effective, FAA Needs To Validate FTI
Cost, Schedule, and Benefits
Given that the FTI transition is experiencing schedule delays, the program’s
benefits are eroding, and the December 2004 rebaseline information could not be
validated, it is important for FAA to develop and validate FTI cost, schedule, and
benefit information that reflect the current status of the program. Until FAA
independently validates FTI program information, the cost effectiveness of the
investment in FTI will remain questionable. For example, in October 2005, we
received an updated FTI status report from the Program Office showing a
reduction in the benefit estimate from $820 million to $672 million—a drop of
approximately $150 million since the FTI rebaseline was approved. Should FAA
continue to experience delays transitioning to FTI, the Agency should develop a
strategy outlining its plans to pay for both the FTI network and the legacy
networks.


SUMMARY OF RECOMMENDATIONS
To improve FAA program management controls over the FTI transition, we are
recommending that FAA:

   • Develop a realistic master schedule and an effective FTI transition plan that
     requires the FTI Program Office to coordinate with Harris, Verizon, and
     FAA regional offices to manage and execute the FTI transition.
     Specifically, it should:

      o develop a master schedule with an approved schedule baseline through
        FTI completion for site acceptance, service acceptance, service cutover,
        and legacy circuit disconnects at each site. The schedule should be
        incorporated into the FTI contract to ensure accountability, and

      o ensure that Verizon is included in the transition planning to effectively
        manage and execute LINCS circuit disconnects after cutover to FTI
        services. FAA also needs to ensure that FTI site-specific requirements
        are defined and validated with input from FAA regional officials before
        transitioning to FTI services.

   • Modify the FTI contract to require that Harris provide its monthly EVM
     reports to FAA for the fixed-price elements of the FTI contract.

   • Determine the number of LINCS circuits and funding requirements
     necessary to extend the Agency’s LINCS bridge contract with Verizon for
     the 1-year extension or longer if necessary.
                                                                                11



   • Validate the FTI schedule, cost, and benefit information to determine if the
     program is still cost-beneficial or whether it should be modified or
     terminated.

A complete list of our recommendations can be found beginning on page 24.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In response to our draft report, FAA indicated that it intends to take a number of
actions to increase the effectiveness of project management controls over the FTI
program transition. Overall, FAA concurred or partially concurred with all five of
our recommendations. When successfully implemented, FAA’s planned actions
will meet the intent of our recommendations and contribute significantly in
moving this highly complex program forward.

FAA stated that it will develop a master schedule and transition plan and will
ensure the FTI Program Office coordinates these products with Harris, Verizon,
and FAA regional offices. FAA further indicated that the work associated with the
schedule and plan will be assigned to accountable field offices and tracked as part
of its quarterly performance metrics. Moreover, the Agency stated that it will
have the master schedule and transition plan validated by June 30, 2006.

FAA’s response also indicated that it plans to take actions to address the other
recommendations in this report. These include incorporating the master schedule
into the FTI contract with Harris by September 29, 2006, to increase the
contractor’s accountability and more fully coordinating with Verizon on transition
activities by sharing the validated master schedule to improve planning.
Additionally, FAA stated that it will increase coordination with FAA regional
personnel to ensure that FTI services are properly ordered and that workforce
planning reflects regional input. Finally, the Agency stated that it intends to
complete negotiations with Verizon before March 2007 for extending the LINCS
bridge contract through March 2008, with options for periods beyond that date to
ensure that LINCS remains available until the FTI transition is complete.

A complete discussion of Agency Comments and our response can be found
starting on page 25.
                                                                                                    12




BACKGROUND
FAA’s mission for FTI is to achieve an integrated suite of products, services, and
business practices to better meet the telecommunications needs of the NAS and of
non-NAS infrastructures. With FTI, FAA will transition from traditional
dedicated circuits to on-demand service where appropriate. According to FAA,
these services will provide lower unit cost, more efficient bandwidth utilization,
improved information security, and state-of-the-art business processes and
technology.

FAA began FTI in 1999 after conducting an investment analysis that concluded a
single new telecommunications network could cost significantly less than
operating and maintaining the multiple networks owned or leased by the Agency.
In July 1999, the Agency approved the FTI program cost baseline of $1.9 billion,
which included $205 million in facilities and equipment (F&E) costs to transition
old telecommunication networks to FTI and $1.7 billion in operations and
maintenance (O&M) costs to support the old and new networks over 10 years.

In August 2001, OIG reported5 that the initial cost estimate for FTI lacked credible
support because there were no field studies or surveys to support the estimate.
OIG identified that costs were materially underestimated, and FTI program
officials confirmed those results.

In February 2002, the Agency’s lease for its largest and costliest existing
telecommunications network, LINCS, was set to expire. LINCS provides up to
20,000 primary and backup voice and data communication services between
Government-selected sites. FAA awarded MCI WorldCom, which has been
purchased by Verizon, a $602 million, 5-year LINCS bridge contract. Under this
contract, Verizon provides hardware, software, and transmission media
(e.g., cables) necessary to provide an equivalent level of service as was provided
by LINCS. Verizon also provides operation, monitoring, management, control,
maintenance, and administration capabilities.

In July 2002, FAA awarded an Indefinite Deliver, Indefinite Quantity contract to
Harris to begin transitioning FTI into the NAS and to provide management and
support functions for the FTI networks. FAA’s contract with Harris is essentially
a 15-year lease that will expire in 2017 and covers the cost of acquiring, operating,
and maintaining the FTI network. The contract has a current maximum value of
$1.4 billion and a ceiling amount of $3.5 billion, with no limits on quantities,

5
    OIG Report Number FI-2001-076, “Replacement of Telecommunications System, FAA,” August 21, 2001. OIG
    reports are available on the website: www.oig.dot.gov.
                                                                                                            13


meaning there is almost no limit on Harris’ ability to sell additional services to
FAA until the ceiling is reached.

In December 2004, FAA rebaselined the program, increasing both its F&E and
O&M costs for completion of the FTI transition.

      • The F&E cost went to $310 million (up 51 percent from $205 million).
        This cost baseline includes FAA’s program management and other
        overhead costs, as well as Harris’ start-up costs, engineering services to
        support network establishment, implementation, and cutover of services.
        The cost increase was due to, among other things, an increase in the
        number of sites (from 1,374 to 4,463) to receive FTI equipment.
      • The O&M cost increased from $1.7 billion to $2.1 billion through 2017,
        adding 5 years to the expected life of the program.

As a result, projected FTI lifecycle costs (i.e., F&E plus O&M) increased from the
original 1999 baseline of $1.9 billion to the current $2.4 billion—a $500 million
increase. The FTI Program Office currently estimates that 4,463 FAA facilities
and remote sites and about 25,000 telecommunications circuits and service
delivery points will be affected by FTI6 (see Exhibit B).

FAA has justified the FTI program on the basis that it will cost less to operate than
the seven existing networks. Before FAA can achieve any operational savings,
however, FAA and Harris must complete a massive telecommunications transition
effort. While waiting for FTI, FAA spends over $200 million per year to fund the
seven existing telecommunications networks.


FINDING AND RECOMMENDATIONS

FAA Needs To Take Steps To Improve Management Controls and
Reduce Schedule Risks
FTI is a high-risk and schedule-driven program that is unlikely to meet its
December 2007 revised completion date. In fact, only months after being
rebaselined in December 2004 by the JRC, the program began falling behind
schedule again and the program has not recovered. Because the primary purpose
of the FTI program is to lower operating costs, which are dependent on deploying
the system on schedule, expected benefits are eroding.


6
    These quantities are current FTI Program Office estimates.   Over the past several years, the estimates have
    fluctuated.
                                                                                 14


FTI is not likely to be completed on time because the JRC did not direct the
program office to develop a detailed realistic master schedule or an effective
transition plan identifying when each site and service will be accepted, when
services will be cut over to FTI, and when legacy services will be disconnected.
Further, the FTI Program Office needs to ensure better coordination with its field
offices and with Verizon to ensure that service disruptions are avoided when
services are transitioned to FTI.

Until FAA develops a realistic schedule and effective transition plan, it will be
difficult to hold the FTI contractor accountable or determine when the FTI
transition will be completed. Moreover, FAA cannot accurately estimate how
long Verizon’s LINCS services will be needed until it has a realistic schedule. To
account for the delays to date, FAA will have to exercise its 1-year option to
extend Verizon’s existing contract to support the LINCS services but may need to
retain Verizon’s services for a longer period.

As presented to the JRC, FAA’s plan focused only on completing “site
acceptance,” which is primarily installing FTI equipment. However, three other
critical steps are required to transition FTI services into the NAS and begin
achieving cost savings. The additional steps are service acceptance, service
cutover, and legacy circuit disconnect. Until FAA disconnects its legacy circuits,
projected cost savings from reduced operating costs will not be realized.

While focusing on site acceptance, FAA only disconnected about 3 percent of the
legacy circuits by the end of FY 2005 and accumulated a large backlog of
uncompleted work. As a result, the benefits that FAA expected to achieve by
reducing its operations costs are eroding while the risk of not being completed on
time is increasing. For example, FAA did not realize $32.6 million in reduced
operating cost in FY 2005 that it had expected due to the limited progress made
disconnecting legacy circuits. Additionally, unless FTI service cutover and legacy
circuit disconnect rates accelerate substantially, the estimated cost savings for
FY 2006 of about $102 million is also at risk of not being realized.

FAA Has Only Focused on Site Acceptances, not Service Cutovers
and Legacy Disconnects Required To Complete FTI Transition
In December 2004, the JRC only approved a schedule baseline for achieving FTI
site acceptance, which is primarily the installation of FTI equipment. However,
following site acceptance, three other critical steps are required to transition FTI
services into the NAS for operational use and begin achieving cost savings by
disconnecting legacy circuits. The steps are:
                                                                               15


      • site acceptance, a contractual milestone in which Harris demonstrates
        that network equipment has been successfully installed and is connected
        to the FTI network operations and control center;

      • service acceptance, a contractual milestone in which Harris
        demonstrates that FTI telecommunications services meet all contractual
        performance specifications and are ready for use by FAA;

      • service cutover, which means the new FTI equipment and services are
        operational and satisfy FAA requirements; and

      • legacy disconnect, which means that the old equipment is turned off and
        FAA is no longer paying for these services.

During FY 2005, the FTI program began experiencing significant schedule delays
and did not meet the JRC-approved annual goal of 1,064 FTI site acceptances. For
example, FAA did not complete site acceptance work at its complex sites (e.g., Air
Route Traffic Control Centers) until June 2005, 11 months after the planned
completion date. Therefore, in June 2005—6 months after the JRC approved the
schedule—the FTI Program Office drafted a “recovery plan” and reduced its site
acceptance goal to 565 sites, a 45 percent reduction from the JRC-approved plan.

At the end of FY 2005, the FTI Program Office reported that about 16 percent of
FTI sites (or about 700 of 4,463) had FTI equipment installed. While FAA
exceeded its revised site acceptance goals established in the recovery plan, FAA
has made very little progress transitioning FTI services into the NAS or reducing
its operating costs by disconnecting existing legacy circuits. For example, by the
end of FY 2005, only about 2.5 percent (610 of 24,266) of FTI services had been
cutover to the NAS for operational use. Similarly, only about 3 percent (591 of
19,322) of the legacy circuits had been disconnected at the end of FY 2005. Due
to the limited progress made transitioning to FTI in FY 2005, the program has
developed a large backlog of uncompleted service acceptance, service cutovers,
and legacy circuit disconnect work.

To address the FTI backlog, the Program Office is now assuming that it can
accelerate FTI’s transition rate substantially in FY 2006, as reported in FAA’s
January 2006 Monthly Status Report on FTI Metrics. For instance, the FTI
Program Office plans to accelerate legacy circuit disconnect rates by almost
10-fold from 591 actual disconnects through FY 2005 to 5,046 planned
disconnects in FY 2006. This is a high-risk assumption that is not realistic. We
note that FAA has already failed to achieve its service cutover and legacy service
disconnect goals for the first quarter of FY 2006.
                                                                                  16


It is important for FAA to get FTI back on track and meet its goal for completing
the FTI transition, because delays translate directly into increases in operations
costs due to the prolonged sustainment of legacy networks. For example, while
FAA expected to spend $181 million overall for existing legacy networks in
FY 2005, the Agency actually spent about $217 million. Consequently, the FTI
program did not realize $32.6 million in FY 2005 cost savings, due to the limited
progress made disconnecting legacy circuits. Additionally, unless FTI service
cutover and legacy disconnect rates accelerate substantially, estimated savings for
FY 2006 of about $102 million are also at risk of not being realized. According to
the 2005 MITRE analysis of the FTI program, if the program does not achieve its
December 2007 completion date, each 1-year delay could translate into as much as
a $100 million increase in telecommunication costs to FAA.

According to MITRE, site acceptance alone is an insufficient metric to track
progress toward FTI completion. MITRE added that the December 2004 FTI
rebaseline request submitted to the JRC did not document the FTI transition
process at a level detailed and sufficient enough to identify pertinent critical
elements. For instance, MITRE observed that the revised FTI schedule baseline
did not include a metric for service acceptance.

FAA Needs To Develop a Realistic Master Schedule and an Effective
Transition Plan Through FTI Completion
FAA needs to develop a realistic master schedule and an effective FTI transition
plan to ensure all affected parties (i.e., FTI Program Office, FAA regions, Harris,
and Verizon) coordinate and manage the execution of the FTI transition to avoid
further schedule delays and outages to air traffic control operations. Currently,
FAA has no contractually binding master schedule with Harris. Instead, Harris
learns of work FAA expects it to do from contract letters issued monthly by the
FTI Program Office. However, the contract letters only project work required
4 months ahead and in our opinion do not provide Harris with a reasonable basis
for making longer-range projections to plan work efficiently. The monthly
contract letters to Harris are also limited in that they focus primarily on achieving
site acceptance.

Having a contractually binding master schedule with its contractor is a basic
contract management tool for any acquisition program. Yet FAA’s FTI contract
with Harris does not include a master schedule. Without this tool, FAA cannot
know whether its schedule projections (such as FTI completion by December
2007) are realistic, nor can it hold its contractor accountable for failing to meet
those projections. To better manage and execute the FTI transition, FAA needs to
develop and approve a master schedule for all four steps through FTI completion.
FAA also needs to baseline annual goals for each transition step and incorporate
                                                                                 17


them as key metrics into the master schedule with realistic dates for completing all
steps. Senior FAA decision-makers should then measure FTI program
performance against the schedule and hold FTI program and contracting officials
accountable for meeting it. According to MITRE’s assessment, failure to develop
these metrics will result in increased schedule slippage in the overall program.

In addition, FAA needs to ensure that Verizon is included in the transition
planning to effectively manage and execute how LINCS circuits will be cutover to
FTI and when the LINCS network will be disconnected. In its LINCS Bridge
Contract, FAA foresaw the need for its LINCS contractor to work with the Agency
and Harris to ensure an orderly transition from LINCS to FTI. Therefore, FAA
included a contractually deliverable item, called a “comprehensive transition
plan,” that the Agency could order when it was ready to do so. However, FAA
has never ordered the comprehensive transition plan, thereby removing an
incentive for Verizon to aid in the FTI transition.

Furthermore, according to FAA’s January 2006 status report on FTI metrics, FAA
plans to disconnect over 16,000 legacy circuits by the end of 2007. However,
Verizon is only contractually required to disconnect 500 circuits per month, which
equates to just over 12,000 circuits by the end of 2007. This is about
4,000 circuits less than the 16,000 circuit goal. Until FAA includes Verizon in its
transition plans and both parties agree to a realistic schedule for disconnecting
LINCS, the transition will remain at risk of not being completed on time.

Define and Validate Site-Specific Requirements To Avoid Further
Schedule Delays and Outages to Air Traffic Control Operations
From the start of the program in 1999, FAA officials underestimated the scope of
FTI requirements. Instead of completing site surveys to determine FTI
requirements, officials assumed that new FTI equipment would be required for just
1,374 sites and existing telecommunications equipment could be reused at more
than 3,000 sites. Subsequently, FTI program officials concluded that new FTI
equipment would be required at over 4,400 sites.

Because neither the FTI Program Office nor Harris fully understood site
requirements, the scope and complexity of the FTI transition were underestimated.
Procuring and installing equipment when requirements are not fully understood
introduces high risk to a program. According to MITRE, the FTI Program Office
grossly underestimated FTI requirements and compounded the problem by
insisting that Harris first focus on FAA’s most complex sites, the Air Route
Traffic Control Centers (ARTCCs).

For example, in July 2004 when Harris completed installation of FTI equipment at
the ARTCCs during the first phase of the FTI transition, Harris and FAA found
                                                                                                                     18


that the equipment was inadequate to support all the required FTI services because
service requirements had been grossly underestimated. Harris had to upgrade FTI
equipment at all the ARTCCs and did not complete the upgrade until June 2005,
11 months after initially claiming to have completed this activity. Even so,
according to MITRE, additional FTI equipment will have to be added to each of
the ARTCCs later to accommodate connections to FAA remote sites, such as radar
facilities.

The FTI Program Office continues to experience problems with fully
understanding site-specific requirements, as evidenced by an October 31, 2005
incident at FAA’s Terminal Radar Approach Control facility supporting Chicago’s
O’Hare Airport. FTI equipment failed, causing a loss of critical radar data to
O’Hare’s air traffic controllers. As a result, the controllers had to significantly
reduce the number of aircraft operations, and numerous flight delays occurred.
FTI program officials had failed to coordinate with regional engineers to
determine the site-specific requirements. The FTI equipment installed did not
meet the site requirements because FAA failed to specify the correct number of
FTI circuits. While troubleshooting and correcting the problem, FAA technicians
had to switch back from FTI to the LINCS network.

During the outage, FAA attempted to switch to the FTI backup but found that no
backup service was available because FAA failed to test and validate that a backup
line existed. FAA is planning to implement a review process that includes
validation of the facility and service requirements by appropriate facility personnel
to ensure site-specific requirements are met. A number of other sites have
experienced problems transitioning to FTI, including Orlando, Florida.

As FAA plans to accelerate FTI transition rates in FY 2006, it is important that
FTI program officials coordinate with facility personnel to define and validate
site-specific requirements.      FTI requirements should be validated before
transitioning FTI services into the NAS to prevent further operational performance
risks to air traffic operations.

Based on the Current Rate of FTI Transition, the Program Will Not Be
Completed on Time and the Lagging Transition Rate Could Result in
a 2-Year Schedule Delay
The FTI Program estimate of completing the transition by December 2007 is
unlikely to occur, based on our analysis and estimates included in the FTI
Business Case Analysis Report (BCAR). This report was submitted to Office of
Management and Budget in July 2005 as part of FAA’s Exhibit 3007 support for

7
    The Exhibit 300 is designed to ensure that the business case for investments is made, is tied to the program mission,
    and complies with Office of Management Budget acquisition management policy.
                                                                                                 19


the FTI program baseline. According to the BCAR, based on the number of sites
transitioned to FTI during FY 2005, FTI is more likely to be complete by
November 2009—about a 2-year delay—rather than December 2007. This
conclusion is supported by separate analyses of FTI transition conducted by FAA
and MITRE.

For example, FAA’s BCAR includes schedule completion scenarios for
completing FTI transition activities (including site prep and cutover). As
illustrated in Table 4, the first schedule shows FAA’s “high-confidence” rates to
achieve FTI completion by December 2007. This schedule projected 1,064 sites
being completed in FY 2005, which did not occur. Instead, at the end of FY 2005,
the FTI program transition rates (about 700 sites) align with FAA’s “worst-case
scenario” schedule, which does not project completion until November 2009.


Table 4. FAA’s “High-Confidence” Schedule versus “Worst-Case
                     Scenario” Schedule
                        FY 2005        FY 2006       FY 2007          FY 2008   FY 2009   FY 2010
                         Sites          Sites         Sites            Sites     Sites     Sites
 High-                    1,064          1,795         1,515               63         0          0
 Confidence
 Schedule
 Completion
 (12/07)
 Worst-Case                   710         1,180          1,173           886       461         27
 Schedule
 Completion
 (11/09)
Source: Exhibit 300 Program Baseline; Business Case Analysis Report


Based on the status of the FTI transition through the first quarter of FY 2006, the
FTI transition is more likely to be completed sometime in FY 2009. Other
estimates, including MITRE’s, also project a later completion date than December
2007. According to the MITRE analysis, each 1-year delay could translate into as
much as a $100 million increase in telecommunication costs to FAA for
continuing to maintain its legacy networks.
                                                                                                    20


To Improve FTI Contract Management, FAA Needs To Require the FTI
Contractor To Provide Monthly Management Reports on the Fixed-
Price Elements of the Contract
According to an Office of Management and Budget guideline8 and FAA
Acquisition Management System policy, major contracts that are considered high
value, critical, or high risk to the Agency, such as FTI, should include full EVM
data. EVM is an important oversight tool that can be used by management to
identify early warning indicators of potential cost overruns and schedule delays
and to make critical decisions in managing contracts. FAA’s FTI contract requires
Harris to provide EVM data on the cost-reimbursable development elements. This
is a small proportion (roughly $28 million at contract award) of the total contract
value. However, FAA does not require Harris to provide EVM data for the fixed-
price elements of the contract, which constitute over 90 percent of the $1.3 billion
contract value. EVM data would have been useful to FAA management to
monitor cost growth for several fixed-price elements of the FTI contract (see
Table 5).


Table 5. Growth in Costs of FTI “Fixed-Price” Contract Elements
    Contract Line           Prior Fixed         Revised           Cost         Percent     Cumulative
        Item                   Price          Fixed Price        Growth        Increase       Billed
                                                                                           As of 9/2005
2001BA: Perform             $ 7,908,219       $ 8,080,136       $171,917              2%   $ 8,080,136
Program
Management
2006BA: Establish           $ 2,145,556       $ 2,821,820       $676,264             32%   $ 2,821,820
Network
Management and
Operations
2011BA: Establish           $    119,591      $    412,571      $292,980           245%    $   412,571
Integrated
Business Service
3001BA: Perform             $ 8,427,338       $ 8,652,939       $225,601              3%   $ 8,652,939
Program
Management
3006CA:                     $15,298,783       $15,688,783       $390,000              3%   $15,688,788
Maintain Network
Management and
Operations
Source: OIG analysis of FAA FTI Contract


8
    OMB Guideline M-05-23, “Memorandum for Chief Information Officers,” August 4, 2005.
                                                                                                                     21


During our review, we noted several instances where the costs of fixed-price items
were renegotiated at a higher price. For example, a fixed-price contract element
called “network management and operations” was originally negotiated for a fixed
price not to exceed $2.14 million during the second year of the contract. The
contract was modified at a later date, and this contract element increased to
$2.82 million, an increase of $676,000, or 32 percent, for that year.

FAA should be collecting EVM data on the entire program to protect Government
interests. During our review, we raised this issue with senior FAA executives
responsible for the FTI program; they assured us that FAA is planning to expand
the use of EVM to cover the complete scope of the FTI contract. FAA now needs
to follow through by modifying the FTI contract to require that Harris provide
monthly EVM data to FAA for all contract elements.

The FTI program officials’ willingness to renegotiate previously fixed prices
upward needs to be monitored because FAA has sought to reduce cost risk by
using fixed-price elements. However, if FAA subsequently renegotiates these
elements at higher prices, the goal of using fixed-price elements is undermined.
The use of EVM data would provide early identification of problems, such as cost
growth in fixed-price contract elements due to changes in work requirements.

FAA Needs To Determine the Number of LINCS Circuits and Funding
Required To Extend the LINCS Bridge Contract
While transitioning to FTI, FAA has a 5-year bridge contract in place with
Verizon for leasing telecommunications services over its LINCS9 network. The
LINCS network contains 20,000 of the approximately 25,000 circuits planned to
be transitioned to FTI, and FAA pays about $120 million per year to operate and
maintain the network. The LINCS contract expires in March 2007, before FAA’s
December 2007 estimated completion date for FTI transition. However, the
contract includes an option for a 1-year extension through March 2008, but FAA
has not executed the extension.

FAA and Verizon officials need to determine the number of LINCS circuits that
will be operating during the extension year and the funding requirements for that
period. Since FAA already knows that LINCS will not be completely
disconnected by March 2007, FAA needs to begin negotiations to resolve
requirements issues and finalize LINCS contract terms and conditions as soon as



9
    LINCS is a mission-critical network because it carries FAA’s air traffic control voice, radar, and surveillance data.
    In FY 2005, FAA spent at least $220 million to operate and maintain existing telecommunications networks and of
    that, about $123 million was for LINCS.
                                                                                  22


possible to ensure that LINCS remains available during the extension year and
beyond if necessary.

Before executing the extension, FAA’s challenge will be to determine the number
of circuits that will be operating on the LINCS network after March 2007 so that a
reasonable price can be negotiated. However, without a contractually binding
master schedule through the end of the FTI transition, it will be difficult for FAA
to determine what the LINCS requirement will be by March 2007. Since FAA had
disconnected less than four percent (659 of 18,216) of LINCS circuits through the
end of November 2005, it is not likely that the transition will be complete without
executing the option (see Exhibit C).

FAA Must Update FTI Business Rules To Properly Charge the F&E
Account for FTI Transition Activities
FAA does not have adequate controls over how the FTI program is charging costs
to its F&E or O&M accounts. The FTI program established business rules that
require F&E funds to be used to pay for all FTI transition costs, including
equipment, network establishment, and the initial transition of services to the
network. After telecommunication services are operating on the FTI network,
they should be paid for with O&M funds. However, we found about 20 percent
($11 million of $51.9 million) of the O&M funds spent on FTI in FY 2005 were
used to pay for FTI transition activities. F&E funds should have been used instead
of O&M funds for these activities. By allocating O&M funds to pay for F&E
activities, the FTI program is underestimating the F&E cost to complete the FTI
transition.

The FTI business rules have not been updated to reflect delays in the FTI
transition or to ensure that O&M funds are not used for F&E activities. For
example, the business rules state that for the first 2 years of the contract (FY 2003
and FY 2004), engineering services associated with network establishment and
service improvements are to be funded from the F&E account. For FY 2005 and
later, the business rules call for funding this effort out of the O&M account.
However, because FTI is so far behind schedule, many of the engineering services
supporting network establishment, implementation, and cutover of services were
not completed within the first 2 years (and are still not complete). These continue
to be F&E activities and should continue to be funded out of the F&E account.

FAA reports that it cumulatively spent $283 million on the FTI program through
the end of FY 2005. About $171 million was spent for FTI transition efforts from
the F&E account, and $112 million was spent from the O&M account. These
large O&M expenditures for FTI have occurred despite only about 3 percent of the
FTI network being operational and far fewer FTI sites and services than planned
being connected.
                                                                                  23


FAA needs to properly charge all transition-related costs to the F&E account in
order to make FTI transition costs more transparent and determine where the
program stands in relation to the $310 million F&E cost goal. As long as FAA is
using O&M funds to pay for the FTI transition, the $310 million cost goal is an
ineffective metric. When we brought this issue to the attention of program
officials, they agreed to review the FTI business rules to address our concerns.
Until FAA updates its business rules, this will remain an issue.

To Ensure That FTI Is Still Cost Effective, FAA Needs To Validate FTI
Cost, Schedule, and Benefits
Given that the FTI transition is experiencing schedule delays, the benefits are
eroding, and the December 2004 rebaseline information could not be validated, it
is important for FAA to develop and validate FTI cost, schedule, and benefit
information that reflect the current status of the program.        Until FAA
independently validates FTI program information, the cost-effectiveness of the
investment in FTI will remain questionable. For example, in October 2005, we
received an updated FTI status report from the Program Office showing a
reduction in the benefit estimate from $820 million to $672 million—a drop of
approximately $150 million since the FTI rebaseline was approved.

Before the JRC meeting in December 2004 to consider the FTI Program Office’s
request for cost and schedule rebaselining, FAA’s Capital Investment Team (CIT)
began evaluating the FTI Program Office’s business case data. The CIT reviews
investment plans and assesses economic value to assure that proposed investments
are justified before the estimates are presented to the JRC. After beginning its
evaluation, the CIT recommended that the JRC decision to rebaseline the FTI
program be deferred. The CIT reported that the Program Office’s business case
was questionable, the revised cost and schedule goals appeared to be
underestimated, and benefits appeared to be overestimated. Despite the CIT’s
concerns, the JRC approved rebaselining FTI in December 2004.

FAA policy requires that FAA program officials submit independently validated
cost and benefit estimates for planned capital investments, such as FTI, to the JRC
before the JRC approves a rebaseline request. The validated cost and benefit
estimates are required to ensure that the program is still cost-effective. Validating
cost and benefits estimates is important because if the revised program costs are
underestimated, cost growth will cause benefits to be reduced, possibly to the
point of undermining the cost-effectiveness of the investment. According to FAA
officials familiar with the JRC decision, FTI was approved without validated cost
or benefits information because the Office of Management and Budget was
delaying approval of the FY 2006 FTI budget request pending JRC approval.
                                                                                24


In addition to not complying with Acquisition Management System policy, senior
FAA officials did not adhere to direction included in the Information Technology
Management Reform Act of 1996, known as the Clinger-Cohen Act. The Act is
designed to improve the way the Federal Government acquires and manages
information technology investments. For example, the Act requires that senior
management personnel, such as the JRC, have a means of measuring progress on
an independently verifiable basis for cost, capability of the system to meet
specified requirements, timeliness, and quality to manage the program. However,
senior FAA officials did not receive independently verified FTI program
information in December 2004 but approved FTI rebaselining anyway.

It is important for FAA to validate the FTI cost, schedule, and benefit information
to ensure the program is still cost effective or determine whether it should be
modified or terminated. In addition, in our view, the Agency should begin
developing a strategy for how it will pay for both the FTI network and legacy
networks beyond the estimated December 2007 timeline.


RECOMMENDATIONS
To increase FAA program management controls over the FTI transition, we are
recommending that FAA:

   1. Develop a realistic master schedule and an effective FTI transition plan that
      requires the FTI Program Office to coordinate with Harris, Verizon, and
      FAA regional offices to manage and execute the FTI transition.
      Specifically,

      a) develop a master schedule with an approved schedule baseline through
         FTI completion for site acceptance, service acceptance, service cutover,
         and legacy circuit disconnects at each site. The schedule should be
         incorporated into the FTI contract to ensure accountability, and

      b) ensure that Verizon is included in the transition planning to effectively
         manage and execute how LINCS circuits will be cutover to FTI services
         and when the LINCS network will be disconnected. FAA also needs to
         ensure that FTI site-specific requirements are defined and validated with
         input from FAA regional officials before transitioning to FTI services.

   2. Modify the FTI contract to require that Harris provides its monthly EVM
      reports to FAA for the fixed-price elements of the FTI contract.
                                                                                25


   3. Determine the number of LINCS circuits and funding requirements to
      extend the Agency’s LINCS bridge contract with Verizon for the 1-year
      extension or longer if necessary.

   4. Update FTI Business Rules so that the F&E account is properly charged for
      FTI transition activities.

   5. Validate the FTI schedule, cost, and benefit information to determine if the
      program is still cost-beneficial or determine whether it should be modified
      or terminated.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On April 26, 2006, FAA provided comments (see Appendix) to our March 15,
2006 draft report. FAA concurred with four recommendations and partially
concurred with a fifth recommendation.

In response to our first recommendation, FAA concurred and stated that it will
develop a master schedule and transition plan reflecting all necessary transition
work and will ensure the FTI Program Office coordinates these products with
Harris, Verizon, and FAA regional offices. The Agency added that it will have the
master schedule and transition plan completed and validated by June 30, 2006.
FAA also said that it will adjust the schedule based on the validation outcome and
incorporate the revalidated schedule into the FTI contract with Harris by
September 29, 2006.

Also in response to our first recommendation, FAA concurred with the need to
ensure that Verizon is included in FTI transition planning. FAA sent a formal
request to Verizon on April 7, 2006, requesting a working meeting to discuss
transition planning. Additionally, FAA will take the following steps to continue to
include Verizon in transition planning by providing Verizon (1) the validated
master schedule and (2) monthly updates to the schedule based upon actual
execution.

FAA further indicated that it will include regional personnel in the validation of
service requirements and obtain their input before transitioning to FTI services.
Moreover, FAA stated that it will ensure services are properly ordered with
diversity/redundancy when required based on operational criticality. Regional
work will be assigned to an accountable FAA field office and tracked as part of its
quarterly performance metrics. FAA expects to initiate these steps by April 28,
2006, and perform them on a recurring basis for the remainder of the FTI
transition.
                                                                               26


With respect to our second recommendation, FAA partially concurred and stated
that it already obtains EVM reports from Harris for the cost-reimbursable work
under the contract and uses data from Harris’ monthly financial reports and FAA
site and service acceptance tracking data to develop its own EVM data for fixed-
price contract elements. These data are reported to the FAA leadership.
According to FAA’s response, it plans to update EVM data as necessary based on
the validation of the master schedule by June 30, 2006.               While our
recommendation called for FAA to acquire Harris’ fixed-price EVM data directly,
the Agency’s planned action to use data from Harris’ monthly financial reports to
develop its own EVM reports will satisfy the intent of our recommendation.

In response to our third recommendation, FAA concurred and stated that it sent a
formal request to Verizon on April 7, 2006, to begin exploratory discussions to
negotiate terms and conditions of a LINCS contract extension for services through
March 2008, with options for periods beyond that date. According to FAA, a key
input to the discussions will be the master schedule. Based on the schedule, FAA
and Verizon will develop a projection of (1) the number of LINCS circuits
expected to remain in operation after March 2008, (2) the phase-out schedule for
those circuits, and (3) the funding required until all circuits are disconnected.
FAA expects to complete this contract action by March 2007.

Regarding our fourth recommendation, FAA concurred and indicated that it will
evaluate the FTI business rules and update business rules so that the F&E account
is properly charged for FTI transition activities. FAA expects to have this change
in place by May 30, 2006.

In response to our fifth recommendation, FAA concurred and stated that it will
validate the master schedule as described in recommendation number one. A key
component of the schedule validation activity is an assessment of the program’s
actual performance to date and the trends in acceptance and cutover rates. Using
the outcome of the assessment activity, FAA will complete a cost and benefits
reassessment based upon actual and projected legacy and FTI network costs. FAA
also stated that the reassessed cost projections will then be compared to those in
the December 2004 baseline to determine the benefits variance. FAA expects the
validation activities to be completed by September 29, 2006.

When successfully implemented, FAA’s planned actions will meet the intent of
our recommendations and contribute significantly to improving program
management effectiveness. The key to successful implementation will be the
Agency’s follow through on its planned action to develop a realistic master
schedule for the FTI transition. Once this master schedule is developed, we
believe that FAA will be in a better position to implement its other planned
actions.
                                                                                27


ACTION REQUIRED
We consider FAA’s actions taken or planned to be taken responsive and meet the
intent of our recommendations. In accordance with Department of Transportation
Order 8000.1C, the recommendations will remain open until FAA completes all
planned actions.

We appreciate the cooperation and assistance of your staff during our audit. If you
have any questions regarding this report, please contact me at (202) 366-1992 or
David A. Dobbs, Assistant Inspector General for Aviation and Special Program
Audits, at (202) 366-0500.

                                        #
                                                                                28


EXHIBIT A. SCOPE AND METHODOLOGY
Our objectives for this performance audit were to (1) determine whether FAA
could transition to FTI within revised estimated cost and schedule baselines and
(2) identify key program risks that could affect program cost and schedule
projections. To achieve our objectives, we obtained billed contract cost data,
budget data, acquisition plans, cost and schedule projections, contractor financial
and performance reports, and other supporting documentation from FAA. We also
acquired relevant information from Harris, MCI/Verizon, and MITRE. We
analyzed FAA’s FTI budget and cost estimates and reviewed FAA’s FTI transition
strategy documents for reasonableness and cost-effectiveness. We examined
FAA’s expenditures data for FTI and for FAA’s legacy telecommunications
networks, including the Verizon LINCS system.

While conducting this review, we interviewed key FAA and FTI program officials
at the Agency’s Headquarters in Washington, DC, including senior FAA
executives responsible for Telecommunications, Acquisition, and Finance, as well
as FAA staff members in organizational units reporting to these executives. We
interviewed FTI prime contractor officials at Harris’ primary FTI location in
Melbourne, Florida, as well as at its Washington, DC, office. We also met with
officials of MITRE. Additionally, we visited the FAA’s Western Pacific and
Midwestern Regional Offices and the Air Route Traffic Control Centers for the
Western Pacific Region in Palmdale, California, and the Midwest Region in
Olathe, Kansas.

We performed our survey and verification work from April 2005 through February
2006. We performed our work in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States.




Exhibit A. Scope and Methodology
                                                                            29


EXHIBIT B. FAA FACILITIES LINKED BY FTI

All of FAA’s facilities (en route, terminal, and tower controls; flight service
stations; and radar and radio sites) will be linked by FTI.




Source: Harris Corporation and FAA
TRACON: Terminal Radar Approach Control




Exhibit B. FAA Facilities Linked by FTI
                                                                                                                  30


EXHIBIT C. PERCENTAGE OF IDENTIFIED LINCS CIRCUITS
REPLACED BY FTI SERVICES BY FACILITY AIRSPACE
THROUGH NOVEMBER 2005
       Facility                  Total Number                    Actual                     Percent
       Airspace               Services and Circuits             Cutovers*                  Complete
 Washington, DC                     1,251                           54                        4.3%
 Los Angeles                        1,232                            7                        0.6%
 Boston                             1,189                           44                        3.7%
 Atlanta                            1,132                           30                        2.7%
 Houston                            1,066                            8                        0.8%
 Oakland                            1,022                            2                        0.2%
 Fort Worth                           999                           21                        2.1%
 Kansas City                          946                           49                        5.2%
 Cleveland                            933                           39                        4.2%
 Minneapolis                          927                           27                        2.9%
 Chicago                              905                           99                       10.9%
 Jacksonville                         895                           20                        2.2%
 New York                             861                           16                        1.9%
 Seattle                              817                           34                        4.2%
 Memphis                              746                           50                        6.7%
 Albuquerque                          719                           15                        2.1%
 Indianapolis                         685                           65                        9.5%
 Denver                               604                           22                        3.6%
 Miami                                594                           34                        5.7%
 Salt Lake City                       543                           16                        2.9%
 Honolulu                             137                            1                        0.7%
 Anchorage**                           13                            6                       46.0%
  Total                            18,216                         659                         3.6%
*  Cutover refers to the physical act of transferring telecommunications service from the existing legacy networks to
   the FTI network.
** FAA’s November 2005 update did not include revised figures for Anchorage. Anchorage figures shown are as of
   July 2005.




Exhibit C. Percentage of Identified LINCS Circuits Replaced by FTI
Services by Facility Airspace Through November 2005
                                                                                31


APPENDIX. MANAGEMENT COMMENTS




In the subject draft report dated March 15, the Federal Aviation Administration
(FAA) was requested to provide specific action taken or planned for each of the
five recommendations. The FAA concurs with the OIG recommendation to
increase FAA program management controls over the FTI transition.
Specifically, we concur with recommendations 1, 3, 4, 5, and partially concur with
recommendation 2. The planned actions and target completion dates are
described below.

OIG Recommendation 1: Develop a realistic master schedule and
an effective FTI transition plan that requires the FTI Program Office
to coordinate with Harris, Verizon, and FAA regional offices to
manage and execute the FTI transition.

FAA Response: Concur. The FAA made a commitment to the Department of
Transportation (DOT) Investment Review Board (IRB) on March 16 to develop a
master schedule and transition plan. This activity will be coordinated with Harris,
Verizon, and FAA regional offices. The schedule will reflect all work associated
with each A-node decommissioning, including site acceptance, service
acceptance, service cutover, and legacy service disconnect at each site. The
work associated with the schedule will be assigned and tracked to an
accountable FAA field office as part of its quarterly performance metrics.

The FAA will perform a validation of the master schedule product by June 30 and
adjust as necessary any decommissioning activities. Monthly performance
tracking against all planned activities will continue. The DOT IRB plans to meet
in June to assess program progress against this action.

Appendix. Management Comments
                                                                                 32

OIG Recommendation 1a, Part 1: Develop a master schedule with an
approved schedule baseline through FAA Telecommunications Infrastructure
(FTI) completion for site acceptance, service acceptance, service cutover, and
legacy circuits disconnects at each site.

FAA Response: Concur. The FAA will take the following actions to improve
management controls over the FTI program:

      a. prepare a detailed master schedule to include completion for site
         acceptance, service acceptance, service cutover and legacy circuits
         disconnects;
      b. validate the FTI master schedule; and
      c. adjust the master schedule based upon the validation outcome.

The target completion date for these activities is June 30.

OIG Recommendation 1a, Part 2: The schedule should be incorporated into
the FTI contract to ensure accountability.

FAA Response: Concur. The FAA will incorporate major milestones related to
the A-node work packages from the master schedule into the FTI contract once
the activities in response 1a, part 1, are completed. The target completion date
for this activity is September 29.

OIG Recommendation 1b, Part 1: Ensure that Verizon is included in transition
planning to effectively manage and execute how Leased Interfacility National
Airspace System Communications System (LINCS) circuits will be cutover to FTI
services and when LINCS network will be disconnected.

FAA Response: Concur. On July 29, 2005 the FAA provided Verizon with a
comprehensive transition plan for their review and comment. The FAA also sent
a formal request to Verizon on April 7, requesting a working meeting to begin
exploratory discussions to negotiate terms and conditions on a contract
extension for services through March 2008, with options for periods beyond that
date. The FAA will take the following additional steps to continue to include
Verizon in transition planning by providing Verizon with:

       a. the validated master schedule described in response 1a, part 1; and
       b. monthly updates to the schedule based upon actual execution.

The FAA will be requesting Verizon’s review and feedback on the schedule. The
FAA expects to complete this action by April 28.

OIG Recommendation 1b, Part 2: FAA also needs to ensure that FTI site
specific requirements are defined and validated with input from FAA regional
officials before transitioning to FTI services.




Appendix. Management Comments
                                                                                33


FAA Response: Concur. The FAA will include regional personnel in the
validation of service requirements and obtain their input before transitioning to
FTI services. The FAA will ensure that services are properly ordered with
diversity/redundancy when required based on operational criticality. In addition,
the FTI Program Office will include Systems Maintenance Office personnel in
transition schedule planning to ensure that the transition workload is addressed
in workforce planning for field resources. The FAA will initiate these steps by
April 28. These steps will be performed on a recurring basis for the remainder of
the FTI transition.

OIG Recommendation 2: Modify the FTI contract to require that Harris provide
its monthly Earned Value Management (EVM) reports to FAA for the fixed-price
elements of the FTI contract.
FAA Response: Partial-concur. The FAA obtains EVM reports from Harris for
the cost reimbursable work under the contract. With respect to fixed price
elements of the contract, the FAA uses data from Harris monthly financial reports
and from FAA tracking of actual site and service acceptance dates to generate
the program level EVM data for this work. The EVM information on the firm fixed
price work is reported to the FAA leadership as part of the total program EVM
reporting, but is generated at the program level by the FAA, not by Harris. This is
the same approach that is being used by other FAA programs that have firm
fixed-price (FFP) contracts and through this means; the FAA currently has all the
information it requires to perform EVM on the full scope of the capital investment
for FTI. Additionally, the FAA believes that Recommendation 1a, Part 2, and our
response and action effectively yields the desired outcome for ensuring the
program schedule performance is being tracked rather than getting into the cost
and price issue that is inherent with FFP contract full EVM reporting, at minimal
cost to the Government. The FAA will update the EVM data, as necessary,
based upon the validation of the master schedule by June 30.

OIG Recommendation 3: Determine the number of LINCS circuits and funding
requirements necessary to extend the Agency’s LINCS bridge contract with
Verizon for the 1-year extension or longer if necessary.

FAA Response: Concur. The FAA sent a formal request to Verizon on April 7,
requesting a working meeting to begin exploratory discussions to negotiate terms
and conditions on a contract extension for services through March 2008, with
options for periods beyond that date. This activity is undertaken as a contingency
to ensure extended service is available, where needed, based on execution of the
schedule. A key input to the discussions will be the master schedule described in
the response 1a, Part 1. In the course of these discussions and based upon
actual FTI transition execution relative to the master schedule, the FAA and
Verizon will develop a projection of: (1) the number of LINCS circuits expected to
remain in operation after March 2008; (2) the phase-out schedule for those




Appendix. Management Comments
                                                                                   34
circuits; and (3) the funding required until all circuits are disconnected. The FAA
projects completion of the contract action by March 2007.

OIG Recommendation 4: Update FTI Business Rules so that the F&E account
is properly charged for FTI transition activities.

FAA Response: Concur. The FAA will evaluate the program business rules and
make the changes recommended by the OIG so that the F&E account is properly
charged for FTI transition activities. The FAA expects to have the changes in
place by May 30.

OIG Recommendation 5: Validate the FTI schedule, cost, and benefit
information to determine if the program is still cost-beneficial, or whether it should
be modified or terminated.

FAA Response: Concur. The FAA will validate the master schedule as
described in response 1a, Part 1. A key component of the schedule validation
activity is an assessment of the program’s actual performance to date and the
trends in acceptance and cutover rates. Using the outcome of this assessment
activity, FAA will complete a cost and benefits reassessment based upon actual
and projected legacy and FTI network costs. The reassessed cost projections
will then be compared to those in the December 2004 baseline to determine the
benefits variance. It is important to note that the FTI program has a number of
benefits in addition to cost including – enterprise-wide security, multiservice
offerings to meet customer demand, management of the inventory, and price
management capability - FAA will not pay more than market prices. The recent
Mitre study on FTI, used in your analysis of the program, supports these benefits.
The FAA expects the validation activities to be completed by September 29.




Appendix. Management Comments
